N

0 5 2 §>
filed

IN THE

JUN 1 5 2020

SUPREME COURT OF THE UNITED STATES
DON MASHAK - Petitioner
VS.
COMMISSIONER OF INTERNAL REVENUE
Respondent
MOTION FOR WRIT OF CERTIORARI

UNITED STATES COURT OF APPEALS FOR THE EIGHT CIRCUIT
Case No. 19-1429

j

PETITIONER

ATTORNEY FOR RESPONDENTS

Don Mashak, In Propia Persona
And as a citizen of the Organic USA
POB 231 Albertville MN 55301
612-249-3299
DonMashak@Yahoo.com

Commissioner of Internal Revenue
c/o Beth A. Nunnink
30 E 7th Street #1130
St. Paul, MN 55101
(651) 726-7340

■

We include First National Repossessors, Inc (FNR) as a listed party, though
repeatedly Appellant Mashak has asked the Lower Court and Appellate Court to
remove FNR as a litigant. In fact, this is one point of contention Appellant alleges is
a factual error in this matter.
First National Repossessors, Inc. (a Subchapter S Corporation)
c/o Don Mashak, In Propia Persona and as a citizen of the Organic USA
POB 231 Albertville MN 55301
612-249-3299
DonMashak@Yahoo.com
1 | 40
^-;_i V l_Q

JUN 2 2 2020

Received
JUN 2 3 2020

»A

■<*

QUESTIONS PRESENTED
1) At every step in the process, is it unconstitutional for Respondent
Commissioner of Internal Revenue (IRS) to be punish or retaliate against any
citizen with adverse decisions without foundation in the Rule of Law for
reasons solely and wholly outside the scope of its authority?;
2) At every step in the process, is it unconstitutional for Respondent
Commissioner of Internal Revenue (IRS) to be punish or retaliate against any
citizen for exercising their Natural Right to Petition the Government for
Redress of Grievances without fear of punishment or retaliation, as reduced
to writing in the First Amendment?;
3) Is it or is it not unconstitutional and a violation of every individual Citizens’
Natural Rights (9th Amendment) and other Constitutional Rights! for the IRS
to punish and/or give unfavorable rulings to any person or group for reasons
that are solely and wholly outside its authority?;
4) Did Respondent IRS unconstitutionally punish or retaliate against Petitioner
Mashak and his wholly owned Sub-Chapter S Corporation, “First National
Repossessors, Inc. (FNR) for reasons outside the scope of its authority?;
5) Is the IRS’s sole authority the enforcement of United States Tax Laws
pursuant to the Rule of Law?;
6) Was the IRS’s punishment of and retaliation toward members of the TEA
Party and other conservative groups and individuals a few years ago,
unconstitutional. (This is relevant because Petitioner Mashak was deeply
involved in the TEA Party Movement.);
7) Is it unconstitutional, for the US Supreme Court (SCOTUS) to require Pro Se
and In Propia Persona litigants to file Motions for Writs of Certiorari without
access to Law Libraries because the Government closed them for reasons
allegedly related to the COVID-19 crisis?;
8) Is the settled Metaphysics of Natural Law still the guiding philosophy of our
government and judiciary? (The organic country our founder’s created was
founded upon Natural Law (Laws of Nature, First Paragraph, Declaration of
Independence and the 9th Amendment to the organic US Constitution.);
9) Is any attempt by any person to replace Natural Law’s “unalienable Rights of
the Individuals with Progressive assertions that “the concept of rights of the
individual is “nonsense” (Progressive Democrat President Woodrow Wilson,
page 25, Appendix D) unconstitutional and/or treason and/or sedition?;
2 | 40

10) Is any attempt by any person to make Progressive Harvard Law School Dean
Roscoe Pound’s assertion that the American Bill of Rights, “were not needed
in their own day [and] are not desired now” (page 25, Appendix D) a reality!
unconstitutional and/or treason and/or sedition?!
11) Is virtually every tenant of Progressivism unconstitutional? (See Chapters 1
to 3 and Chapter 6, Appendix D);
12) Is it unconstitutional and/or treasonous and/or seditious that Progressives
installed the Administrative State as the Fourth Branch of government to
covertly implement unconstitutional tenants of Progressivism?!
13) Is America in the middle of a revolution by the Progressive Globalist
Insurgency?!
14) Are the recommendations of the Final Report of the Senate Church
Commission investigation into FBI, CIA, NSA and IRS being adhered to?!
15) Are operations and activities by any unit of government, which are the same
or similar to the FBI’s COINTELPRO Operations, to marginalize, discredit
and demonize the leaders of political dissent unconstitutional?!
16) Is it Treason for the Government to punish a citizen who is trying to expose
portions of the Government as Domestic Enemies engaged in Sedition and
Treason?!
17) Does the fact that the Federal Reserve (Banking) System’s “Debt Based Fiat
Money” criminal conspiracy violates the private property rights of every
American make it unconstitutional?!
18) Does the fact that the Federal Reserve (Banking) System’s “Debt Based Fiat
Money” criminal conspiracy creates a debt which can never be paid back
make it unconstitutional and/or a violation of the 13th Amendment’s
prohibition against “Involuntary Servitude”?!
19) It is unconstitutional, and/or Treason and/or Sedition if US Government
Officials fail to act against any person or group trying to replace Natural Law
and the American Constitution by Advancing the Progressive Agenda!
20) Respondent IRS aided and abetted conspiracies of treason and or sedition in
giving unfounded adverse rulings to Mashak and FNR for the purpose of
retaliating against punishing Petitioner Mashak for opposing the Progressive
Globalist Insurgency!

3 | 40

21) Is the requirement that Subchapter S Corporations, wholly owned by a single
individual, be represented by a lawyer, an unconstitutional infringement and
violation the First Amendment’s Right to Petition the Government for
Redress of Grievances;
22)Is there any secret agreement, play on words or other legal machination that
in any way infringes or removes the organic Constitution the US Founders
created as the Foundational Legal Document of the Organic “Constitution for
the United States of America”?
23)Is there any Judicial “Code Red” which prevents any lawyer from bringing
any of these questions asked here, or any other legal question, before this
and/or any other court in the United States of America

4 | 40

LIST OF PARTIES
[XX ] All parties appear in the caption of the case on the cover page.(except as noted below)
[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:

Clerk of Courts,
Supreme Court of the United States,
Washington, D. C. 20543-0001

PETITIONER

ATTORNEY FOR RESPONDENTS

Don Mashak, In Propia Persona
And as a citizen of the Organic USA
POB 231 Albertville MN 55301
612-249-3299
DonMashak@Yahoo.com

Commissioner of Internal Revenue
c/o Beth A. Nunnink
30 E 7th Street #1130
St. Paul, MN 55101
(651) 726-7340

We include First National Repossessors, Inc (FNR) as a listed party, though
repeatedly Appellant Mashak has asked the Lower Court and Appellate Court to
remove FNR as a litigant. In fact, this is one point of contention Appellant alleges is
a factual error in this matter.
First National Repossessors, Inc. ( a Subchapter S Corporation)
c/o Don Mashak, In Propia Persona and as a citizen of the Organic USA
POB 231 Albertville MN 55301
612-249-3299
DonMashak@Yahoo.com

TABLE OF CONTENTS
QUESTIONS PRESENTED

2-4

TABLE OF AUTHORITIES

6-9

OPINIONS

10

JURISDICTION

10

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

11-13

STATEMENT OF THE CASE

13-17

REASONS FOR GRANTING THE MOTION

17-39

CONCLUSION

39-40
INDEX TO APPENDICES

APPENDIX A - January 17, 2020 8th Appellate Court Order;
APPENDIX B - January 18, 2019 MN District Court Decision!
APPENDIX C - March 19, 2020 US Supreme Court COVID19 Crisis Extension!
APPENDIX D - Illiberal Reformers^ Race, Eugenics and American Economics in the
Progressive Era (2016) by Progressive Professor Thomas Leonard
APPENDIX E - Rules for Radicals (1971) by Saul Alinsky
APPENDIX F - 2008 Party Platform Judicial TAR Resolutions
APPENDIX G - 2012 Party Platform Judicial TAR Resoultions
APPENDIX H - 2020 Election Integrity Handout used at 2020 Election Judge
indicating I have been pursuing this issue for several elections without good result
APPENDIX 1-2017 Yearly Demand (since circa 2005) to Minnesota State
Legislator for a hearing dedicated to receiving evidence and testimony of corruption
in the Minnesota Judiciary!

5 | 40

TABLE OF AUTHORITIES CITED
CASES
Few cited as access to Law Libraries impeded by Coronavirus lockdown
Emma Rush v. State Arkansas DWS, No. 17-1457 8th Circuit Court of Appeals,
Reversed and Remanded Dismissal of Pro Se Litigants Case on technical error, citing See
Federal Express Cor. v. Holowecki, 552 U.S. 389, 402(2008)(holding that pro se litigants are
"held to a lesser pleading standard than other parties"); and Erickson v. Pardus, 551 U.S.
89, 93(2007)(noting that pro se complaints are to be liberally construed) Accordingly, we
reverse and remand with directions lto allow Rush to amend her pleadings.
Marburv vs. Madison. “All laws which are repugnant to the Constitution are null and
void.” 5 US (2 Cranch) 137, 174, 176, (1803)
General Electric Co. v. Joiner, 522 U.S. 136(1997) - Abuse of Discretion
STATUTES AND RULES
First Amendment — Congress shall make no law ... abridging the freedom of speech, or of
the press! or the right of the people peaceably to assemble, and to petition the Government
for a redress of grievances.
Fourth Amendment - The right of the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be seized.
Fifth Amendment * No person... shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of law; nor
shall private property be taken for public use, without just compensation.
Sixth Amendment - In all criminal prosecutions, the accused shall enjoy the right... to be
informed of the nature and cause of the accusation! to be confronted with the witnesses
against him! to have compulsory process for obtaining witnesses in his favor, and to have
the Assistance of Counsel for his defense.
Seventh Amendment - In Suits at common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise re-examined in any Court of the United States, than according to
the rules of the common law.
Eighth Amendment - Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.
Ninth Amendment - The enumeration in the Constitution, of certain rights, shall not be
construed to deny or disparage others retained by the people.
6 | 40

Tenth Amendment - The powers not delegated to the United States by the Constitution,
nor prohibited by it to the States, are reserved to the States respectively, or to the people.
Thirteenth Amendment - Neither slavery nor involuntary servitude, except as a
punishment for crime whereof the party shall have been duly convicted, shall exist within
the United States, or any place subject to their jurisdiction.
Sixteenth Amendment - The Congress shall have power to lay and collect taxes on
incomes, from whatever source derived, without apportionment among the several States,
and without regard to any census or enumeration.
18 U.S. Code $ 241 — Conspiracy Against Rights
18 U.S. Code Chapter 96 - RACKETEER INFLUENCED AND CORRUPT
ORGANIZATIONS
18 U.S. Code CHAPTER 115 — TREASON, SEDITION, AND SUBVERSIVE
ACTIVITIES
18 U.S. Code § 2384. Seditious conspiracy
US CONSTITUTION. Article 3, Section 3 - Treason against the United States, shall
consist only in levying War against them, or in adhering to their Enemies, giving them Aid
and Comfort. No Person shall be convicted of Treason unless on the Testimony of two
Witnesses to the same overt Act, or on Confession in open Court. The Congress shall have
Power to declare the Punishment of Treason, but no Attainder of Treason shall work
Corruption of Blood, or Forfeiture except during the Life of the Person attainted.
US Declaration of Independence - 1776
Nuremburg and Mv Lai Massacre Trials - The verdicts of Nuremburg Trials, as well as
My Lai Massacre trials, established that defenses of “I was just following orders”, etc. are
not valid defenses to accusations of Crimes Against Humanity.
OTHER
Natural Law — America is founded upon Natural Law, “Laws of Nature”, paragraph 1,
Declaration of Independence. The Amendment 9, further evinces America was founded upon
Natural Law. (Natural Law is Settled Metaphysics as Laws in Physics and Settled aspects
of Physics) The US Founders believed that Natural Law and Natural Rights were Common
Knowledge and so pervasive that they debated if the Bill of Rights were necessary to ensure
the unalienable Natural Rights of Citizens. Eventually they did draft and pass the Bill of
Rights, but even then, the Ninth Amendment assured all that the Bill of Rights was not an
exhaustive list of all the Right of American Citizens.

7 | 40

Rule of Law — Provides that all citizens should be subject to the same set of laws, equally
enforced without regard to wealth, status nor government position. It is a concept that has
been around since about the 4th Century BCE beginning with Aristotle. More generally, it is
the mechanism process,, institution, practice or norm that supports the equality of all
citizens before the law, secures a nonarbitrary form of government, and more generally
prevents arbitrary use of power. The concept of the Rule of Law is Part and Parcel of
Natural Law’s ‘Consent of the Governed’, Equality and Equity....
Leviathan - Thomas Hobbes (1651) This was Hobbes’ attempt to Justify the Metaphysics of
the “Devine Right of Kings”.
Second Treatise of Civil Government - John Locke (1689) Perhaps the best consolidated
primer on Natural Law and Consent of the Governed. (Madison accused Jefferson of
plagiarizing Locke in drafting the US Declaration of Independence (1776)]
Illiberal Reformers- Race. Eugenics and American Economics in the Progressive Era
- Thomas Leonard (2016)
Rules for Radicals - Saul Alinsky (1971) (Appendix E)
The Descent ofMan, and Selection in Relation to Sex— Charles Darwin (1871) Applied
Natural Selection to Humanity
Principles of Biology — Herbert Spencer (1864) - Spencer coined the phrase “Survival of
the Fittest” and believed evolutionary concepts extended to sociology and ethics. Spencer is
best known for his “theory of SOCIAL DARWINISM throughout contemporary history”
[cite. “Weinstein, David, Herbert Spencer, The Stanford Encyclopedia of Philosophy” (Fall
2019 Edition), Edward N. Zalta (ed.)]
On the Origin of Species bv Means of Natural Selection, or the Preservation of
Favoured Races in the Struggle for Life - Charles Darwin (1859)
Federal Reserve Act (1913) - Established the current Federal Reserve (Banking) System
and its “Debt Based Fiat Money” criminal conspiracy against the unalienable Natural
Property Rights of WE THE PEOPLE (httpV/rebrand.ly/USDreamCollapse)
Final Report of The Church Committee (formally the United States Senate Select
Committee to Study Governmental Operations with Respect to Intelligence
Activities)
Final Special Counsel Report of President Donald Trump & Russia Collusion aka
The Mueller Report

8 | 40

David Rockefeller — Memoirs (2002) and 1991 Speech The first admitting his
participation in a seditious and treasonous conspiracy and, the second, thanking the
Mainstream Media for not exposing the conspiracy he was part of. (aka Progressive
Globalist Insurgency)
Judicial “Code Red” - The Judiciary’s unwritten set of rules (because they generally
violate laws, rules of regulations) that nevertheless exist and are covertly enforced. (Concept
loosely based on the concept of Military “Code Red” from the 1992 Movie, “A Few Good
Men”)
Truncated due to access to Law Libraries impeded by Coronavirus lockdown

9 | 40

IN THE
SUPREME COURT OF THE UNITED STATES
MOTION FOR WRIT OF CERTIORARI TO US SUPREME COURT
OPINIONS BELOW
[X] For cases from Federal courts:
The opinion of the highest state court to review the merits appears at
Appendix A____ to the petition and is reported at US 8th Circuit Court of Appeals
+Appendix A
[ X reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the
appears at Appendix

; or,

Appellate Court refused to provide
to the petition and is

[ ] reported at __
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

Court
; or,

JURISDICTION
[ ] For cases from state courts:
The date on which the highest state court decided my case was N/A
A copy of that decision appears at Appendix A
_______ .
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

10 I 4 0

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Petitioner Mashak, for legitimate health and other reasons, late filed his
wholly owned Sub-Chapter S Corporations, First National Repossessors, Inc., 2008
- 2011. Petitioner hand Congestive Heart Failure Events in 2007 and 2011 which
dropped his heart function to less than 15% and required hospitalization. Doctors to
Petitioner Mashak to avoid stress. Financial difficulties prevented Petitioner from
hiring an accountant to do his 40+ page personal and Corporate Tax Filings.
Each year, Respondent Commissioner of Internal Revenue’s (IRS) Employees
rudely and unprofessionally said they did not have the knowledge to answer
Petitioners tax questions. During these conversations, IRS employees told
Petitioner Mashak, if no tax is due, no penalty accrues. After Petitioner filed the
late returns with no tax owing, Respondent IRS sent Petitioner a bill for penalties
and interest in excess of $7000.00. Petitioner Mashak exhausted all internal
appeals and was forced to take the IRS to Court. These penalties should have been
rescinded for cause or as a matter of hardship if these decisions were being made
base on legitimate reasons within the authority of the IRS.
Petitioner Mashak asserts that l) It is unconstitutional for the IRS to profit
from its deliberate fraud in telling Petitioner Mashak not penalties would accrue for
late filing in no taxes were due. And, 2) Respondent IRS made its decision for
unconstitutional reasons and/or based on reasons outside the scope of its authority.
These being to aid and abet a criminal conspiracy to Obstruct Justice, and/or to
punish and retaliate for Petitioner exercising his Natural Right to Petition the
111 40

Government for Redress of Grievances without fear of punishment or reprisal as
reduced to writing in the First Amendment, and/or as coconspirators in a 18 U.S.
Code Chapter 96 RICO Conspiracy and/or in furtherance of the seditious (18 U.S.
Code § 2384) and treasonous (US Constitution, Article 3, Section 3; and 18 U.S.
Code Chapter 115) Progressive Globalist Insurgency and/or as simply a 18 U.S.
Code § 241 “Conspiracy Against Rights”
Respondent IRS is part of the Progressive Administrative State. The
Administrative State was implemented (circa 1913) during the first term of
Progressive Globalist Democrat President Woodrow Wilson (Page 43, Appendix D).
The Administrative State was/is part of a plan to slowly implement the
constitutional and unconstitutional tenants of Progressivism (Pages 42 & 43,
Appendix D). Progressive Elites referred to this method of slow, covert revolution as
\

the new “Fourth Branch” of Government. (Pages 42 & 43, Appendix D). Many of the
primary unconstitutional Tenants of Progressivism can be found in Chapters 1 to 3
and Chapter 6 of Appendix D) Petitioner will provide further context and
background under the heading, “Reasons for Granting the Petitioner.”
The Findings of the circa 1975 Senate Church Committee held the FBI, CIA,
NSA and IRS are bound and must abide by the US Constitution. The IRS has
conspired in an unconstitutional FBI COINTELPRO style operation against
Petitioner Mashak. Because the government cannot simply order Petitioner Mashak
to shut up about his political dissent due to Mashak’s Natural and Constitutional
Rights, therefore the Progressive Globalist Insurgency infesting our government’s
12 | 40

“Fourth Branch” (Deep State) had to come with new way to prevent myself and
others from interfering in the advancement of the Progressive Agenda and the rest
of their seditious and treasonous conspiracy. COINTEPRO is the answer.
COINTELPRO operations seek to marginalize, discredit and demonize the leaders
of political dissent, even if they have to make stuff up. Not only does this aid and
abet the aforementioned conspiracies and violate Petitioner Mashak Rights! it
denies Petitioner of his Fourth through Eight Amendment rights to Due Process
under the Rule of Law, to know the charges against him, know the evidence
against him, confront his accusers, protections from unreasonable searches,
protections from cruel and unusual punishment, etc. In effect, the IRS is passing
judgement and exacting punishment for unknown crimes with redress made
impossible by a draconian set of IRS legal proceeding rules. And all of this with the
true purpose of protecting itself and other coconspirators from accountability for the
real crimes they are involved in.
STATEMENT OF THE CASE

In 1998, 2007 and 2011, Petitioner had severe heart events requiring
hospitalization. In 2007 and 2011 Petitioners heart function dropped to 15% or less
and he was hospitalized. In 2008, Petitioner was a victim of a violent home
invasion. In January, 2011, Petitioner was diagnosed with Post Traumatic Stress
Syndrome. During the relevant time frame 2008 to 2011, Petitioner was advised by
his Cardiologist to avoid stress.
During this time, Petitioner became unable to afford to pay his accountant to
13 | 40

prepare his complex taxes for his Sub Chapter S Corporation First National
Repossessors, Inc. (hereafter “FNR”. During this time, Petitioner made calls to the
IRS seeking answers to questions on his complex tax situation. IRS Agents ranged
from unhelpful, to unprofessional to downright condescending and intentionally
malicious, despite being advised of Petitioners heart issues.
Based on the representations that no penalties would accrue if no taxes were
due, and the doctors advise to avoid stress, Petitioner was forced to delay filing.
Each year he would call to try to get answer to his questions, but would stop trying
when Petitioner felt things were getting too stressful. Petitioners health recovered
enough in 2013 to deal with the unprofessional IRS agents, demand the answers he
needed and he filed his back taxes. The IRS now wants Penalties and interest,
though no tax was due. Despite documenting health and other issues and incorrect
information by IRS employees, the IRS charged FNR late filing penalties and
interest despite no income tax being due. FNR was organized as a Subchapter-S
Corporation with Appellant Mashak the sole shareholder. FNR is out of business.
The IRS has pursued Appellant Mashak for these late filing fees in lieu of FNR.
Based on Public Policy, the health and other issues in the relevant time
period were sufficient for the IRS to waive these penalties and interest. IRS
Employees maliciously and erroneously told Appellant Mashak no penalty would
accrue if no income tax was due. Appellant Mashak exhausted his internal appeals
before filing this litigation.
Appellant Mashak asserts this situation arises out of our Government’s use
14 | 40

of the IRS to punish the voices of Political dissent. This is illegal and
unconstitutional in and of itself in that l) the IRS does not have the authority to act
in that capacity, 2) It denies Appellant Mashak to his 4th through 8th Amendment
Rights to due process pursuant to the Rule of Law, 3) it violates Natural Law’s
Right to Petition the Government for Redress of Grievances without fear of
punishment or retaliation, as reduced to writing in the First Amendment. The IRS
previous actions toward the TEA Party and other Conservative organization provide
evidence that the IRS has a policy of unconstitutionally retaliating against the
voices of political dissent. Petitioner asserts the IRS’s actions in this matter are
further intended to punish Petitioner Mashak from opposing the Progressive
Globalist Insurgency’s agenda and exposing its seditious and treasonous conspiracy
to overthrow the US Constitution and WE THE PEOPLE as our country’s
Sovereigns (High Treason).
The MN District Federal Court in its opinion devoted most of its time saying
Mashak did not remove FNR as a litigant by its deadline. Petitioner states as
vigorously as he can that lower court is in “error”. This caused a cascading effect as
then the District quote droned on about a Corporation must be represented by and
attorney and then prevented Mashak from qualifying for IFP. Hidden in a footnote
was somewhere was a note that the original Pleading was difficult to follow, etc.
Mashak had filed the original litigation shortly after getting out of a 2 month stay
in the hospital believing he was under some deadline to do so. Petitioner Mashak
included in the original pleading a paragraph indicating he intended to file an
15 | 40

Amended complaint still not being fully recovered and medicated with drugs
impaired his ability to think clearly.
The Eighth US Appellate Courts denied Mashak’s appeal without providing
an opinion. The effective date being January 17, 2020 (Appendix A)
In a nutshell, Appellant has 90 days from January 17, 2020 to file a Motion
for Writ of Certiorari. That made the due date April 16, 2020. The Supreme Courts
COVID-19 crisis order (Appendix C) extends that by another 60 days, making the
due date June 15, 2020.
The Coronavirus Regulations, et. al. has impeded Petitioner Mashak access
to Law Libraries. The Coronavirus Quarantine regulations in has Minnesota
advising people to stay at home. As Appellant is in an “at-risk” group, visiting the
Law Library for research to meet this deadline is not advisable, and may violate the
myriad of regulations that keep being announced in this dynamically changing
situation. And the US 8th Circuit Court of Appeals refusal to provide an
explanation of their decision, makes using the Law Library even more necessary.
The Minnesota Supreme Court’s Law Library will not even open for limited
business until June 15, 2020, the day this Motion is due. The refusal of the US 8th
Court of Appeals to provide an explanation for its decision and denial of Appellant
Mashak’s Motion for Clarification further increases the necessity of access to Law
Libraries and other Resources. Appellant Mashak being in one of the described atrisk groups reasonably heightens his awareness of the risks. Very frustrating that
this court did not respond to Petitioner request for additional time to file sometime
16 | 40

after the Minnesota Supreme Court Law Library would be open for business.
Let me add here, that Petitioner Mashak was forced to call the Supreme
Court Clerk on June 8, 2020 (a mere week ago) to find out that his request for an
extension of time to file, which he was led to believe would be granted due to the
COVID-19 crisis, was not even being considered. And thus, this Petitioner was
forced to complete this Motion for a Writ of Certiorari in less than a week, without
benefit of access to a Law Library. Let this failure to consider Petitioners Motion for
an extension of time to file and refusal to require the US Eighth Appellate Court to
provide an Opinion with its reasons for its decision, be recognize as further evidence
supporting this Petitioner’s Conclusion for Reasons why this Writ of Certiorari must
be granted.
REASONS FOR GRANTING THE MOTION
Let us do the straight-forward argument, first. We can’t have the IRS making
adverse decisions about taxpayers based on reasons outside of the scope of
authority. For simplicity, at this moment, lets stick with the IRS can’t be allowed
used to punish the voices of political dissent with arbitrary decisions not based in
the Rule of Law. It is antithetical to the Democratic Process America is founded
upon. Respondent IRS did it with the TEA Party and other conservative group a few
years ago. This matter originates in that same time frame. This motion must be
granted on that basis alone. Petitioner’s Involvement in the Judicial TAR
(Transparency, Accountability and Reform) Movement from 2004 to present is well
documented. (Proposed 2008 and 2012 Judicial TAR Party Platform Resolutions
17 | 40

Appendix F & G). Petitioner Mashak
to 2011) And fought hard for

was active in the TEA Party Movement 2009

Election Integrity since circa 2010 (Appendix H) With

that taste of what is to come, let us continue.
THE BIGGER PICTURE
Quite simply, in the worst-case
dismissed this matter for well do

scenario, Respondent IRS should have

cumented health and financial hardship Petitioner

provided them. Next, the IBS cannot be allowed to
profit from penalties resulting
from its employees faili

ng to timely answer questions taxpayers ask

deliberately fraudulent information.
directly

and giving out

Petitioner Mashak failing to timely file

result of IRS employees not giving timely

was

answers to his questions, and

fraudulently telling Mashak no

penalty for late filing would accrue, if no tax
was
due. With th
ese circumstances and this fraudulent information,
the IRS provided.
Petitioner Mashak
reasonably chose to wait until his health i
improved to file tax
forms for year with no income. '
Again, any reasonable person can see this
long before Petitioner

matter should have been resolved

was forced to file the iinitiating litigation. Any reasonable

person can see that the decision was not reached pursuant to the “Rule of Law”.
Using the reasonable person standard, i
it is reasonable to conclude that IRS
decisions were made for
reasons other those falling under the authority of the IRS.
Petitioner believes he has the answer. But for th

e answer to be understood, proper
'taphysical nd Legal historical context which has b
een lost from public

18 | 40

knowledge, must be restored so both my fellow citizens comprising “WE THE
PEOPLE” and the US Supreme Court Judges can understand it in its proper light.
BACKGROUND METAPHYSICAL AND LEGAL HISTORY
Before I begin, it angers me that I must provide this background. What I am about
to write should be common knowledge and form the foundation for the perception
and perspective of reality for every American born and raised in America and thus
educated in our public schools. I assert that it is by deliberate will of evil people for
the evil purpose of enslaving humanity for eternity that great portions of this
knowledge have been deliberately not taught to the masses.
That said, we are going to cover about 1544 years of Metaphysical Paradigm
shifts in 15 paragraphs - 476ad to present:
America revolted from Great Britain over taxes, they revolted over a
Metaphysical Paradigm shift away from Britain’s “Divine Right of Kings” (DRK).
The forced Metaphysics of DRK evolved from the fall of Rome, 476ad to circa 1945.
(Metaphysics is to Humanity as Physics is to the Physical World - Metaphysics
attempts to define the rules which explain Humanities interaction with each other
and with the physical world. It’s that simple)
In short, DRK asserted the King/Queen was a God or representative of God
here on earth and therefore, no one could question his decision or authority. Because
the King/Queen was allegedly divinely inspired, it was asserted they could be
trusted to act in the best interests of the community. The King/Queen owned all the
land. Subjects had no right, merely permissions and privileges. 90% of the subjects
19 | 40

were Serfs and Oafs bound to the land under Feudalism. The King/Queen and
church Established Truth. Truth was enforced by conditioning (rewards and
punishment). (Consider Galileo who only escaped being burned at the stake for
saying the earth was not the center of the universe because of his popularity and
fame. But nevertheless, spent the last years of his life under house arrest.)
During the Renaissance (1300-I600ad), people started using their own
reasoning to explain the physical world around them. From this began the study of
Physics, an attempt to create a rules and laws that would explain how the physical
world worked. Settle Physics is known as the “Laws of Physics”.
During the Enlightenment (l6501800ad), people began thinking about
humanity the way folks in the Renaissance thought about physics. They began to
establish as set of rules and laws to explain how the nature of how humans interact
with each other and their physical world. Settle Metaphysics is known as the “Laws
of Nature” aka “Natural Law”. People began to question why is the King, the King
and why can’t the King’s decisions be questioned.
Natural Law asserts all people have unalienable Natural Rights.
Governments are formed with the “Consent of the Governed” to give the people
more liberty than they would have in the chaos of the Natural State. The primary
function of Government is to protect the unalienable Natural Rights of Individuals
from the trespasses of others, including government itself. In other words, everyone
was free to pursue their own happiness so long as they did not trespass the Natural
Rights of others. (Originally the term “Liberal” applied to the belief that the
20 | 40

unalienable Natural Rights of the Individual were more important than the rights
of government). Natural Law also called for Equality and Equality of the masses
and prescribed the “Rule of Law” as foundation of justice and governance. A very
important difference between Natural Law and DRK was the Establishment of
Truth, rather than Truth being Established by Government, the Individual has a
Natural Right to Establish Truth for themselves using their own observations and
reasoning.
The paradigm shift between DRK and Natural Law resulted in a cultural and
political revolution in the Western World. The American Revolution in 1776 and the
French Revolution in 1789, as examples.
The United States of America [(US) or (America)] was founded upon Natural
Law. (Laws of Nature, first paragraph, Declaration of Independence & the Ninth
Amendment) The American Constitution made WE THE PEOPLE (All of the
citizens) the Sovereigns of the Country; a great departure from the then prevailing
Governments of Monarchy under DRK. So widespread and pervasive was the
knowledge of Natural Law and Natural Rights at the founding of our country, the
Founder’s debate whether a Bill of Rights was even necessary a necessary
Amendment to the Constitution. But the US Founders were distrustful of
government based on their knowledge of history. The US Founder’s assessment of
the Nature of Humankind is perhaps best summarized by that found in the CATO
Letters, “All [people] have free will and are not virtuous by nature. The US
Founders asserted that government must be constructed with the Nature of
21 | 40

Humankind in mind. Knowing the US government would be inhabited by no
virtuous people for generations, the US Founders constructed the Constitution with
Checks and Balances! Transparency and Accountability. The US Founders also
asserted the Federal Government must be kept very small, so that even if the
people who inhabited went rogue, they would lack great power to use upon WE THE
PEOPLE. The accountability also came in the form of elections, and the ultimate
accountability, “Consent of the Governed”; a diplomatic way to tell those who
governed that the masses retained the “right of revolution” From the US
Declaration of Independence^
In the 1849, the forced Metaphysics of Marxism (Socialism/Communism)
paradigm shift occurred. We will not discuss it in depth because it has failed
everywhere it has been attempted since its inception. And, the later Paradigm shift
of Progressivism’s forced Metaphysics mirrors most of its forced Metaphysical
aspects.
In the 1870s, the Social Darwinist Movement began. It was inspired and
sprang from the ideas of Charles Darwin and Hebert Spencer. Darwin’s “On the
Origin of Species by Means of Natural Selection, or the Preservation of Favoured
Races in the Struggle for Life” (1859) was first, followed by Spencer’s “Principles of
Biology” (1864), followed by Darwin’s “The Descent of Man, and Selection in
Relation to Sex” (1871) The Social Darwinists of the 1870s believed in 5 Main
Tenants^ l) Eugenics! 2) Scientific Racism! 3) That humanity should be bred like
livestock; 4) That the rich have the right to exploit the masses because the rich are
22 | 40

genetically superior to the masses as allegedly evinced by their superior wealth.
(Survival of the Fittest); and 5) That the best interests of the Individual were
subordinate to the best interests of Society. Not surprisingly, the masses in America
and around the world rejected Social Darwinism over its evil tenants.
But the Social Darwinists were not done. Social Darwinists rebranded as
Progressives in America in the 1890s, Fabian Socialists in England circa 1900 and
NAZIs in Germany circa 1920 to 1945. But this time, the Social Darwinists would
hide their true “Social Darwinist” roots and agenda from the masses.
Aware that the American masses had vehemently rejected Social Darwinism,
American Progressive Elites reworded their same evil Social Darwinist tenants in
such a way that the evil was not as apparent. While Progressives in America try to
deny their evil Social Darwinist roots, they are clear to anyone paying attention.
For Example, the index of Appendix D”, Illiberal Reformers^ Race, Eugenics and
American Economics in the Progressive Era” (2016) by Progressive Thomas
Leonard, references Social Darwinism on more than 20 of its 191 pages thus
simultaneously evincing and exposing Progressivisms foundations in Social
Darwinism. Mindful of not exposing their Social Darwinist intentions, American
Progressives would still advance their Social Darwinist agenda, but hide it in
__ legislation that appeared to benefit the masses.
When reading Appendix D (Illiberal Reformers, 2016, Thomas Leonard),
Keep in mind it is written by a hardcore, Progressive Professor trying to present the
evil that Progressivism is in the best possible light. But if you keep the 5 main
23 | 40

tenants of Social Darwinism in mind, you will see they are still embedded in
Progressivism. Progressive really just replace the “Divinity” of the “Divine Right of
Kings” with wealth and education to justify the same forced metaphysics, including
the unaccountability of government to the masses. Progressive Elites actually
assert that the Progressive Educated Elites, selected from among the wealthy
leisure class, should not be accountable to the masses because the masses are too
stupid to know what’s best for them.
Progressive Leaders outright call/called for policies and/or made statements
antithetical to Natural Law and the Constitution. Progressive elites boldly
denounced Natural Law’s “unalienable Rights of the Individuals with assertions
that “the concept of rights of the individual is “nonsense”(Progressive Globalist
Democrat President Woodrow Wilson, page 25, Appendix D) Progressive Harvard
Law School Dean Roscoe Pound’s asserted the American Bill of Rights, “were not
needed in their own day [and] are not desired now”(page 25, Appendix D)
And the Progressive Elites opined about the Constitutions Checks and Balances,
which the Founders had implemented slow the creation of a run away government.
“The US Government, Wilson said, was weak and slow because its power was
divided and inefficient (Page 66, Appendix D) Progressives assert the nature of
Progressive Elites is to altruistic and trustworthy and therefore no checks,
balances, accountability and transparency is necessary. (Clearly our own present
government demonstrates this is not true.) Progressives also assert humanity is a
single “Social Organism” (Appendix D, Pages 101, 102) rather than comprised of
24 | 4 0

autonomous individuals having Unalienable natural Rights. While I am want to
invoke Star Trek’s Borg, I think a better analogy is a colony of Honeybees.
Progressive Elites see the masses as expendable worker bees, with no rights, who
exist only to serve the Progressive Hive Community as ordered by the allegedly
genetically and intellectually superior, and allegedly altruistic and trustworthy
Progressive Elite King and Queen bees. More recently, circa 2010, we heard
Progressive President Obama, and his right hand man on Obamacare, Progressive
Professor Jonathan Gruber assert the Progressive Right to lie to the allegedly
ignorant masses. This assertion is perhaps best evinced by the “You can keep your
insurance” and ‘You can keep your doctor” lies as part of the effort to pass
Obamacare. Still more recently, the Progressive Elites asserted unaccountability
and asserted right to Establish Truth through “Conditioning” (Rewards and
Punishments) was demonstrated. Business owners who opened or reopened their
business because they no longer believe what Progressive Educated Elite
Technocrats were saying were arrested violating a wide variety of their Natural and
Constitutional Rights.
To recap, Progressive Educated Elites, like Kings/Queen under Divine Right
of Kings (DRK) assert the following:
1) Government is always right, owing to alleged superior intelligence and
genetic superiority as opposed to DRK’s assertion of the divinity of
Kings/Queens;
2) Government accountable to masses, with Progressives invoking wealth,
intelligence and genetic superiority as the basis for its unaccountability as
opposed to DRK’s alleged divinity of Kings/Queens;
3) The Community is more important than the individual;
25 | 40

4) Progressives will always work for the best interests of the community and not
their own selfish interests because they are altruistic and trustworthy as
opposed to DRK’s asserted divine inspiration;
5) Individuals have no rights;
6) Progressivism has Government Establishing Truth while DRK has
Government and Churches establishing Truth.;
7) Progressivism is trying to reestablish control of all property through Agenda
21, while DRK simply asserts the King/Queen owns all the Land.
Aren’t these things exactly what the American Colonists Revolted from? Aren’t
these things diametrically opposed to the US Constitution and the Natural Law
\

America was founded upon? Aren’t unalienable Natural Rights, unalienable? Isn’t
implementation of these Progressive Tenants exactly the definition of Treason and
Sedition? Importantly, this is not simple Treason, this is High Treason as it seeks to
forcibly remove the Sovereigns, WE THE PEOPLE, and replace Progressive Elites
as the Sovereigns of America. And this ends our summary recap of 1544 years of
Metaphysical and Legal History. (If you were born after 1980 and you think this
information is important to know, go back and ask your teachers and School Board,
why they did not teach it.)
Meanwhile, lets resume by going back to the early 1900s. The American
Progressives decided to adopt the Fabian-Socialist method of revolution by
infiltration. Where the first American Revolution was marked by the shot heard
around the world, this Progressive revolution was specifically designed to not alert
the masses that a revolution had begun. The Progressive Globalist Insurgency
would engage in a slow, covert, incremental revolution over generations so no one
generation would notice enough change to be moved to resist, pick up arms or
mount a counter-revolution.
26 | 40

And as you might expect, battles, tactics and strategies in this
unconventional, nontraditional warfare are far different than the battles, tactics
and strategies of traditional, conventional revolution. Today, a major vector of the
Progressive Globalist Insurgency’s unconventional revolution by infiltration is
Progressive Common Core Indoctrination. Knowledge of Natural Law and Natural
Rights among GenZ is almost completely erased, as intended by Progressive Elites.
We can get a feel for what battles, tactics and strategies of the Progressive Globalist
Insurgency look like by reading 2 books: The first by Progressive Edward Bernays,
“Propaganda” (1928) and the second book, “Rules for Radicals” by Progressive
Marist Saul Alinsky.
Progressive Bernays advocated the manipulation of the masses by the use of
emotion and base instinct exploiting propaganda (fear and sex). If you are averse to
reading, you can learn more by watching YouTube Videos, “Edward Bernays and the
Art of Public Manipulations” and “Edward Bernays: Assassin of Democracy”
Alinsky’s Rules for Radicals (Appendix E) This book is essentially a recipe of
tactics, strategies and PsyOps to trick a nonmarxist country into Marxism
(Socialism/Communism) One of the main premises is that if you subject a society
distress, turmoil and chaos, bad enough for long enough, eventually the majority
will give up their personal rights, accept any government change and vote for
anyone promising to end the distress, turmoil and chaos. (Consider that thus far in
2020 America has been subjected to the distress, turmoil and chaos of near war with
Iran, the COVID-19 crisis and now Race Riots.) Of particular interest, is the tactic
27 | 40

of usurping the leadership of other groups and redirecting their energies to
activities that advance the usurpers agenda. Almost no group is exempt as targets,
but as examples are organic, grass roots, political dissent, political parties, Labor
Unions, government agencies and community groups. (Of not related to this tactic is
the Progressive Globalist usurping of the leadership of both Antifa and Black Lives
Matter to divert their energies to activities that advance agenda of the Progressive
Globalist Insurgency - that being to reduce American resistance to giving up some
of their personal rights and government change if it will end the distress, turmoil
and chaos.)
Other tactic, strategy and PsyOps of this unconventional, nontraditional
revolution by infiltration by the Progressive Globalist Insurgency Include FBI
Operation COINTELPRO and CIA Project MK Ultra and CIA Operation
Mockingbird. (You can read more about these revolution battle strategies here:
Final Report of the Senate Church Committee (formally the United States Senate
Select Committee to Study Governmental Operations with Respect to Intelligence
Activities) It was a U.S. Senate select committee in 1975 that investigated abuses
by the Central Intelligence Agency (CIA) [especially Operation Mockingbird and
Project MK Ultra], National Security Agency (NSA), Federal Bureau of
Investigation (FBI)[especially Operation COINTELPRO], and the Internal Revenue
Service (IRS). While it decried the practices it investigated, it followed in the
governments often repeated tactic of making a big deal out of a scandal and then

28 | 4 0

really doing nothing to correct it or prevent a repeat of the scandalous activities.
(See Peter Strzok)
CIA Operation Mockingbird essentially means taking over the Mainstream
Media and acting as Propaganda Ministers comparable to what Joseph Goebbels did
as NAZI Propaganda Minister. CIA Project MK Ultra searched for methods of mind
control on individuals and the masses in general. They tested drugs on average
American citizens at beaches, in bars and at strip clubs, most often without the
subject’s knowledge or consent.
FBI Operation COINTELPRO was first used on Rev. Dr. Martin Luther King,
Jr. and the Black Panthers. That darn US Constitution makes it almost impossible
to shut up the voices of political dissent. So, what better way to shut them up than
to make their followers and fellow citizens not want to listen to and follow them.
COINTELPRO sought to marginalize, discredit and demonize the leaders of
political dissent so the masses would not listen to them and Mainstream Media
would not publish them. If a background check on the targeted person did not yield
useful information, then they would just make stuff up. Per then FBI Director J.
Edgar Hoover, “It is immaterial whether facts exist to substantiate the allegation If
the facts are present, they aid in the success of the COINTELPRO Operation, but
the FBI believes that the target can be marginalized even without facts”. MLK was
accused of being a womanizer and using and dealing drugs. The Black Panthers
were accused of far more violent activities than they actually committed and their
community service activities were censored from Mainstream Media.
29 | 40

Now if you still are not convinced, we are in the middle of a nontraditional
revolution by revolution by the Progressive Globalist Insurgency, that seeks to bring
about a New World Order under One World Government, here are a few facts and
quotes to bring you nearer to that conclusion. Incidentally, that New World Order is
the management of humanity as a single “Social Organism” (Honeybees) that we
mention earlier (Appendix D, Pages 101 and 102)
The Council on Foreign Relations was founded in 1922 by Wealthy
Progressives John Rockefeller, Paul Warburg and JP Morgan. Its purpose is to
advance the goal of a New World Order under One World Government.
I Some even believe we [Rockefeller family] are part of a secret cabal working
against the best interests of the United States, characterizing my family and
me as 'internationalists' and of conspiring with others around the world to
build a more integrated global political and economic structure - One World,
if you will. If that's the charge, I stand guilty, and I am proud of it |
David Rockefeller, Memoirs (2002, page 405
We are grateful to the Washington Post, The New York Times, Time
Magazine and other publications whose directors have attended our meetings
and respected their promises of discretion for almost forty years. It would
have been impossible for us to develop our plan for the world if we had been
subject to the bright lights of publicity during those years. But the world is
now more sophisticated and prepared to march toward a world government. .
. . The supranational sovereignty of an intellectual elite and world bankers is
surely preferable to the national auto-determination practiced in past
centuries.
David Rockefeller, Text from a speech of his in 1991 before the
Bilderberg Group [ https://youtu.be/GhZWC-jv9_U ]

30 | 40

The point in this exercise of explaining the Metaphysical Paradigm Shifts for the
last!550 years was this and the further facts and evidence provided thereafter is as
follows^
1) Without the understanding that America is in the middle of an unconventional
revolution, the American masses are predisposed to believe the rulings of its courts
and the actions of its government, and Law Enforcement were made pursuant to the
fair and just “Rule of Law”;
2) With the understanding that America is in the middle of a unconventional
revolution, the American masses are receptive to the idea the rulings of its courts
and the actions of its government and Law Enforcement are made pursuant to the
unfair and unjust Progressive “Rule of Man” for the express purpose of aiding and
abetting the seditious and treasonous Progressive Globalist Insurgency;
3) With the knowledge that America is in the middle of an unconventional revolution,
the American masses are awakened to the possibility that many of our courts and
divisions of our government have been “weaponized” to protect and defend the
seditious and treasonous Progressive Globalist Insurgency;
4) Without the traditional signals that alert the masses of a society that a need to
resist and take up arms exists (such as the shot heard around the world in the first
American Revolution), this forum provides the best opportunity to alert my fellow
citizens that we are in the midst of an unconventional, nontraditional revolution so
that they are thus signaled the need to resist, take up arms and mount a counter­
revolution, first exhausting all of their peaceful remedies before considering
alternative remedies.
The IRS has been weaponized to support and protect the Progressive Globalist
Insurgency and punish those who oppose it.
Our Courts have become weaponized to support and protect the Progressive
Globalist Insurgency and punish those who oppose it.
Every decision in this matter by the IRS has been made for reasons outside of
its authority. Respondent IRS is part of the new Fourth Branch Administrative
State Progressives created circa 1912 to slowly and covertly advance their
unconventional revolution by infiltration. Every decision in this matter by the
judiciary has been made for reasons outside the bounds of the Rule of Law.

31 | 40

Petitioner Mashak asserts that both the IRS and the judiciary have been
“weaponized” and have made their decisions based on the Progressive Rule of Man,
to punish Petitioner Mashak for openly opposing the seditious and treasonous
Progressive Globalist Insurgency with its end goal of a New World Order under One
World Government.
We have arrived at this point due to crimes committed against Petitioner
Mashak in the early 1990s. A Criminal Conspiracy, now led by Wells Fargo Bank,
NA engaged in witness tampering activities against Petitioner Mashak. This
witness tampering escalated from threats to destroy Petitioner’s business, to
threats to destroy his life, to death threats against him personally and finally, when
Petitioner was not intimidated by deaths threats against him personally, death
threats towards anyone Petitioner Mashak might care about, friends, family,
children, etc.
Petitioner Mashak dutifully reported this information to the FBI. The FBI
was at first excited to pursue the matter and even confirmed that others in the
banking industry confirmed Petitioner Mashak’s allegations. But then MN US
Attorney David Lillehaug, campaign finance manager for Senator Paul Wellstone,
accepted bribes, campaign contributions and other contributions from Norwest
Bank, NA. (Wells Fargo Banks, NA former legal name prior to buying Wells Fargo
Bank, NA)
Suddenly the FBI was no longer interested. Petitioner doubts that anyone
can understand the level of despair having the foundations of your perspective and
32 | 40

perception of reality kicked out from underneath you. Petitioner Mashak had cut off
contact with all of his friends and family thinking it would only be 2 or 3 years
before he and the FBI had put these banksters in jail. Instead, along, depressed and
in despair, Petitioner was left to live with an unrescinded, government sanctioned
death threat. (See documentation of Petitioner’s allegations at Minneapolis FBI,
and in Hennepin County Court Cases Bank North vs 1st National Bank of Anoka,
NAis 27CV88-22383, Citizens State Bank of St. Louis Park vs. 1st National Bank of
Anoka, NA 91-002759, Don Mashak vs Norwest Bank 93-016429.) Under duress of a
government sanctioned death threat hanging over his head, Petitioner Mashak
settled his civil suit against Wells Fargo Bank, NA. for $15,000, far less than his
damages. In 1998, the stress of these matters almost killed Petitioner. He was in
the hospital for nearly 2 months, with resistant pneumonia, MRSA and Congestive
Heart Failure. Petitioner was told he was going to die, etc.
When Petitioner Mashak finally miraculously did not die and healed well
enough, circa 2004, he realized Wells Fargo Bank, NA would never leave him alone
and Law Enforcement, rather than help Petitioner, would Protect Wells Fargo
Bank, NA. Thus, began Petitioner Mashak’s quest to understand why and how all of
this happened. What you see written here is the condensed summary of the
information I gained on that quest. It is important to me that you, the reader,
realize nobody explained this to me. This was a long process over more than 25
years. I had to figure this out on my own. After I was hospitalized in 1998 and
almost died, I was a broken man. If they had left me alone thereafter, I would have
33 | 40

just lived a low-profile life the best I could, and died in anonymity. But the sick,
twisted bastards think they are gods and sadistically enjoy torturing us expendable
worker bees. Others would commit suicide or go postal; I instead reward their evil
acts with this document and more...
Some quick added proofs of my quest for justice and understanding. In 2004,
when I was once again healthy enough, I joined a loose coalition of individuals and
groups seeking Judicial Reform in Minnesota. I call this Coalition, Judicial TAR
(Transparency, Accountability and Reform) As I was leery of being seen as a leader
of this already established coalition, I was happy to just be a body for events and
meetings. We demanded the Minnesota House and Judiciary Committees give us a
hearing dedicated to receiving evidence and testimony of corruption in the
Minnesota Courts. (Appendix I) Soon the leaders were complaining of retaliation
they were receiving in unrelated matters. The retaliation was so bad some dropped
out of the coalition, some moved out of State and one moved to Canada. This was
the initial inspiration for the article “Progressive Conditioning”
[httpsV/rebrand.ly/ProgressiveConditioning] When it became apparent, the
Minnesota Legislature would not grant us a hearing, I began proposing Platform
Resolutions to my political party in 2008 and 2012. (Appendix F & G) At some point
I began investigating Progressivism and wrote an article about what I was
discovering. [httpsV/rebrand.ly/IsProgressivePCforDRK]
Along the way, Petitioner found himself to be a target of an FBI
COINTELPRO style Operation. FOIA Requests, Subpoenas and litigation to find
34 | 40

the contents of this FBI have been fruitless. I have no convictions for more than
minor traffic tickets. I have never been charged with more than “Disorderly
Conduct”. (In Dakota County, MN this Petitioner was investigating corrupt judges
when this trumped up charge came along. Why is Petitioner not allowed to know
what these allegations are? It was dismissed for lack of Probable Cause”) Why do
Law Enforcement and others run away when I inquire into the nature of these
COINTELPRPO allegations? Why was I never charged? It is because it is all a
fabrication and the perpetrators know they face criminal charges if I am ever
allowed to know the contents of this COINTELPRO file. For those who doubt the
lengths likes of Wells Fargo Bank, NA and the Progressive Globalist Insurgency will
go, Petitioner directs you to the fabrication and paid false witnesses against
President Donald Trump in the now debunked Trump/Russia Collusion matter. It
took Billionaire Trump 3 years to sort that mess out, what chance does an average
citizen like Petitioner have in sorting it out. (Emissaries have been sent to tell me I
can have my life back if I shut)
One more thing, one might well ask if this Treason is premeditated in that
Congress repealed the death penalty for Treason in 1990. WE THE PEOPLE trust
that if one person from that Congress was involved in the present and ongoing
conspiracy to commit Treason, that said repeal is null and void.
All that said, From the US Declaration of Independence... We hold these truths to be self-evident, that all men are created equal,
that they are endowed by their Creator with certain unalienable Rights, that
among these are Life, Liberty and the pursuit of Happiness."That to secure
these rights, Governments are instituted among Men, deriving their just
35 | 40

powers from the consent of the governed, --That whenever any Form of
Government becomes destructive of these ends, it is the Right of the People to
alter or to abolish it. and to institute new Government, laving its foundation
on such principles and organizing its powers in such form, as to them shall
seem most likely to affect their Safety and Happiness. Prudence, indeed, will
dictate that Governments long established should not be changed for light
and transient causes! and accordingly all experience hath shewn, that
mankind are more disposed to suffer, while evils are sufferable, than to right
themselves by abolishing the forms to which they are accustomed. But when
a long train of abuses and usurpations, pursuing invariably the same Object
evinces a design to reduce them under absolute Despotism, it is their right, it
is their duty, to throw off such Government, and to provide new Guards for
their future security....
...In every stage of these Oppressions We have Petitioned for Redress in the
most humble terms: Qur repeated Petitions have been answered only by
repeated injury. A Prinee [Government] whose character is thus marked by
every act which may define a Tyrant, is unfit to be the ruler of a free people.
Nor have We been wanting in attentions to our Brittish- [American] brethren.
We have warned them from time to time of attempts by their legislature to
extend an unwarrantable jurisdiction over us. We have reminded them of the
circumstances of our emigration and settlement here. We have appealed to
their native justice and magnanimity, and we have conjured them by the ties
of our common kindred to disavow these usurpations, which, would inevitably
interrupt our connections and correspondence. They too have been deaf to the
voice of justice and of consanguinity....
My life has been destroyed as a result of our government and judiciary you folks
abandoning the US Constitution, the Bill of Rights, Natural Law, Natural Rights
and the Rule of Law. The destruction of my life was a micro battle in your
unconventional, slow, covert, incremental, seditious, treasonous revolution by
infiltration which seeks to replace the settled Metaphysics of Natural Law with the
forced metaphysics of Progressivism (which is really just Social Darwinism 2.0).
For obvious reasons, this court must grant Petitioners Mashak’s motion for a
Writ of Certiorari. If the obvious reasons are not clear, you must grant this Write of
Certiorari to evince to the WE THE PEOPLE, the sovereigns of America, that our
Judiciary has not become Domestic Enemies complicit with the overthrow of our
36 | 4 0

CONFLICT WITH PREVIOUS 8TH US CIRCUIT COURT OF APPEALS
Emma Rush v. State Arkansas DWS, No. 17-1457 8th Circuit Court of
Appeals, Reversed and Remanded Dismissal of Pro Se Litigants Case on technical
error, citing See Federal Express Cor. v. Holowecki, 552 U.S. 389, 402(2008)(holding
that pro se litigants are "held to a lesser pleading standard than other parties"); and
Erickson v. Pardus, 551 U.S. 89, 93(2007)(noting that pro se complaints are to be
liberally construed) Accordingly, we reverse and remand with directions lto allow
Rush to amend her pleadings. The Lower Courts decision revolves around whether
Petitioner Mashak timely released his corporation FNR, Inc from the litigation in a
timely manner. Petitioner Mashak says he did and the documents support his
assertion. The lower court says he didn’t. The fact of the matter is that we cannot
allow a minor technical/procedure error be the sole basis for dismissal (as all other
reasons are predicated upon this point.) But in this instance, Petitioner is asserting
this dismissal is an unlawful and unconstitutional use of the Progressive “Rule of
Man” to punish a citizen who opposes the seditious and treasonous Progressive
Globalist Insurgency.
CONFLICT WITH PREVIOUS SUPREME COURT RULINGS
It is impossible for a law which violates the Constitution to be valid. This is
succinctly stated as follows: “All laws which are repugnant to the Constitution are
null and void.” Marbury vs. Madison, 5 US (2 Cranch) 137, 174, 176, (1803)
(Proposed Amended Complaint, P 4 and Exhibit 15); Requiring the owner of a SubChapter S Corporation he wholly owns to hire legal counsel he cannot afford
38 | 40

unconstitutionally infringes First Amendment Right to Petition the Government for
Redress of Grievances.
CONCLUSION
Justice, Fairness and Equity demand that this Court grant Petitioner Mashak his
Motion for Writ of Certiorari. Petitioner Mashak asserts the weaponized IRS has
made this adverse decision pursuant to the unconstitutional Progressive Rule of
Man for the expressed purpose of aiding and abetting the Progressive Globalist
Insurgency by punishing one of its opponents. The Constitutional Issues to be
considered can not be allowed to be swept away by falsely alleged minor technical
and procedural errors by Petitioner. As a further point of consideration, Petitioner
Mashak asserts he has so irrefutably made the case for the existence of a seditious
and treasonous Progressive Globalist Insurgency in America, it behooves this
Court to reassure or restore to WE THE PEOPLE, the American masses,
confidence in the integrity of this Court, their commitment to upholding their oath
of office and their steadfast assurance that they will protect America, its
Constitution and WE THE PEOPLE, America’s Sovereigns from all enemies
foreign and domestic.
In the alternative, this court could summarily remand this matter back to
the lower court with a directed verdict ordering the Respondent IRS to pay
Petitioner Mashak $1 Billion Tax free, ordering it to void and expunge any taxes,
penalties and interest Petitioner Mashak and FNR owe to date and admonishing
Respondent IRS to hence forward always abide by the Rule of Law and never again
39 | 4 0

use its powers to punish or retaliate against the lawful voices of political dissent.
Petitioner Mashak has suffered through this hell 25+ years. Justice delayed is
justice denied.
For these reasons,
Petitioner Mashak prays this Court grant his Motion for Writ of Certiorari or
execute his proposed alternative.

Respectfully submitted,

y\
Don Mashak,
Petitioner/Plaintiff
In Propia Persona And as a citizen of the organic United States of America
Date

40 | 40

